OIG Audit Report GR-30-99-010
Use of Equitable Sharing Revenues Salisbury Police Department, Salisbury, Maryland
Audit Report GR-30-99-010	
September 30, 1999
Office of the Inspector General

Executive Summary
The Office of the Inspector General (OIG), Audit Division, has completed an audit of the Use of Equitable Sharing Revenues received by the City of Salisbury Police Department (SPD), Salisbury, Maryland.  The audited equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in connection with joint federal and Wicomico County Narcotics Task Force (WINTF) criminal investigations.  The funds are to be used to enhance law enforcement resources.

	We performed the audit in accordance with generally accepted government auditing standards and, accordingly, included such tests of the records and procedures as we considered necessary.  We audited equitable sharing revenue distributed over the period of October 1, 1991, through June 30, 1998.

	Members of WINTF include the SPD, the Maryland State Police, the Fruitland, Maryland Police Department, the Delmar, Maryland Police Department, and the Wicomico County Sheriff's Department (WCSD).

	Equitable sharing revenues were not accounted for separately in financial records, therefore we were unable to determine if they were deposited and used as prescribed by the Department of Justice (DOJ).  Our review disclosed that:

a separate equitable sharing revenue account was not established; funds totaling $47,095 were credited to a City of Salisbury General Fund; and

	the expenditure of $47,095 and interest earned of $4,942 was questioned because expenditure transactions were unsupported and we could not ascertain whether their use was for purposes approved by the Comprehensive Crime Control Act.

At the conclusion of our audit we requested that representatives of WINTF and the City of Salisbury attend an exit conference. We conducted the exit conference with the Sheriff of Wicomico County, Chairman of WINTF, and informed him of the results of our review.  We provided details of our audit methodology and discussed findings and recommendations.  The Sheriff feels that the establishment of an equitable sharing fund with Wicomico County and placing the accounting responsibility for those funds with the Wicomico County Department of Finance will resolve the problems noted.